               Department of Veterans Affairs
               Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-03648-75




    Combined Assessment Program 

           Review of the 

       Louis Stokes Cleveland 

         VA Medical Center 

          Cleveland, Ohio 





February 19, 2014

                         Washington, DC 20420
To Report Suspected Wrongdoing in VA Programs and Operations 

                    Telephone: 1-800-488-8244 

                   E-Mail: vaoighotline@va.gov

         (Hotline Information: www.va.gov/oig/hotline)

                            CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                                Glossary
                 CAP              Combined Assessment Program
                 CLC              community living center
                 EHR              electronic health record
                 EOC              environment of care
                 facility         Louis Stokes Cleveland VA Medical Center
                 FY               fiscal year
                 MEC              Medical Executive Committee
                 MH               mental health
                 NA               not applicable
                 NM               not met
                 OIG              Office of Inspector General
                 PRC              Peer Review Committee
                 QM               quality management
                 VHA              Veterans Health Administration
                 VISN             Veterans Integrated Service Network




VA OIG Office of Healthcare Inspections
                                 CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                            Table of Contents 

                                                                                                                             Page 

Executive Summary ...................................................................................................              i


Objectives and Scope ................................................................................................              1

  Objectives ...............................................................................................................       1

  Scope......................................................................................................................      1


Reported Accomplishments......................................................................................                     2


Results and Recommendations ................................................................................                       3

  QM ..........................................................................................................................    3

  EOC ........................................................................................................................     6

  Medication Management.........................................................................................                   9

  Coordination of Care ...............................................................................................            10

  Nurse Staffing .........................................................................................................        11

  Pressure Ulcer Prevention and Management .........................................................                              12

  CLC Resident Independence and Dignity ...............................................................                           14


Appendixes
  A. Facility Profile ....................................................................................................        16

  B. Strategic Analytics for Improvement and Learning ............................................                                17

  C. VISN Director Comments ..................................................................................                    20

  D. Facility Director Comments ...............................................................................                   21

  E. OIG Contact and Staff Acknowledgments .........................................................                              24

  F. Report Distribution .............................................................................................            25

  G. Endnotes ...........................................................................................................         26





VA OIG Office of Healthcare Inspections
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                Executive Summary 

Review Purpose: The purpose of the review was to evaluate selected health care
facility operations, focusing on patient care quality and the environment of care, and to
provide crime awareness briefings.          We conducted the review the week of
December 2, 2013.

Review Results: The review covered seven activities.                             We    made     no
recommendations in the following three activities:

 Medication Management

 Coordination of Care

 Nurse Staffing

The facility’s reported accomplishments were the Patient Experience Program and VA’s
Specialty Care Access Network Extension for Community Healthcare Outcomes.

Recommendations: We made recommendations in the following four activities:
Quality Management: Ensure that members from Anesthesia and Surgery Services
consistently attend Transfusion Review Committee meetings and that attendance
records are available to support membership and attendance.

Environment of Care: Ensure patient care areas are clean.

Pressure Ulcer Prevention and Management: Accurately document location, stage, risk
scale score, and date pressure ulcer acquired for all patients with pressure ulcers.
Provide and document pressure ulcer education for patients at risk for and with
pressure ulcers and/or their caregivers.

Community Living Center Resident Independence and Dignity: Ensure that employees
who perform restorative nursing services receive training on and competency
assessment for range of motion and resident transfers.

Comments
The Veterans Integrated Service Network and Facility Directors agreed with the
Combined Assessment Program review findings and recommendations and provided




VA OIG Office of Healthcare Inspections                                                           i
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


acceptable improvement plans. (See Appendixes C and D, pages 20–23, for the full
text of the Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                                           JOHN D. DAIGH, JR., M.D. 

                                                          Assistant Inspector General for 

                                                             Healthcare Inspections





VA OIG Office of Healthcare Inspections                                                           ii
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                              Objectives and Scope 

Objectives
CAP reviews are one element of the OIG’s efforts to ensure that our Nation’s veterans
receive high quality VA health care services. The objectives of the CAP review are to:

   	 Conduct recurring evaluations of selected health care facility operations, focusing
      on patient care quality and the EOC.

   	 Provide crime awareness briefings to increase employee understanding of the
      potential for program fraud and the requirement to refer suspected criminal
      activity to the OIG.

Scope
The scope of the CAP review is limited. Serious issues that come to our attention that
are outside the scope will be considered for further review separate from the CAP
process and may be referred accordingly.

For this review, we examined selected clinical and administrative activities to determine
whether facility performance met requirements related to patient care quality and the
EOC. In performing the review, we inspected selected areas, conversed with managers
and employees, and reviewed clinical and administrative records. The review covered
the following seven activities:

   	 QM

   	 EOC

   	 Medication Management

   	 Coordination of Care

   	 Nurse Staffing

   	 Pressure Ulcer Prevention and Management

   	 CLC Resident Independence and Dignity

We have listed the general information reviewed for each of these activities. Some of
the items listed may not have been applicable to this facility because of a difference in
size, function, or frequency of occurrence.

The review covered facility operations for FY 2013 and FY 2014 through
December 5, 2013, and was done in accordance with OIG standard operating
procedures for CAP reviews. We also asked the facility to provide the status on the


VA OIG Office of Healthcare Inspections                                                          1
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


recommendations we made in our previous CAP report (Combined Assessment
Program Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, Ohio,
Report No. 09-03350-55, December 30, 2009).

During this review, we presented crime awareness briefings for 976 employees. These
briefings covered procedures for reporting suspected criminal activity to the OIG and
included case-specific examples illustrating procurement fraud, conflicts of interest, and
bribery.

Additionally, we surveyed employees regarding patient safety and quality of care at the
facility. An electronic survey was made available to all facility employees, and
616 responded. We shared summarized results with facility managers.

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

                         Reported Accomplishments

The Patient Experience Program
The goals of the Patient Experience Program are timely attention to inpatient issues and
patient satisfaction. Staff members called Patient Experience Liaisons visit inpatients
and respond within 1 hour to address and satisfactorily resolve issues they raise. Real
time analytics were developed to classify issues and patient satisfaction. These daily
data results are electronically accessible to nurse managers and are used to
understand the relationship between this daily feedback and the results of the nationally
administered Survey of Healthcare Experiences of Patients.

Specialty Care Access Network Extension for Community Healthcare
Outcomes (SCAN-ECHO)
The facility was one of the initial medical centers to pilot Specialty Care Access Network
Extension for Community Healthcare Outcomes. The goal of the program is to build a
sustainable infrastructure of health care workers to treat chronic conditions such as
pain, heart failure, diabetes, and vascular diseases. Specialists at the main campus
connect with providers in community based outpatient clinics using video and
teleconferencing equipment. The program has resulted in improved collaboration
between specialists and primary care providers at community based outpatient clinics
and has improved access to pain management and other specialties for veterans
residing in remote areas.




VA OIG Office of Healthcare Inspections                                                          2
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                          Results and Recommendations 

QM
The purpose of this review was to determine whether facility senior managers actively supported
and appropriately responded to QM efforts and whether the facility met selected requirements
within its QM program.1

We conversed with senior managers and key QM employees, and we evaluated meeting
minutes, EHRs, and other relevant documents. The table below shows the areas reviewed for
this topic. The area marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                     Areas Reviewed                                        Findings
       There was a senior-level committee/group
       responsible for QM/performance improvement
       that met regularly.
        There was evidence that outlier data was
          acted upon.
        There was evidence that QM, patient
          safety, and systems redesign were
          integrated.
       The protected peer review process met
       selected requirements:
        The PRC was chaired by the Chief of Staff
          and included membership by applicable
          service chiefs.
        Actions from individual peer reviews were
          completed and reported to the PRC.
        The PRC submitted quarterly summary
          reports to the MEC.
        Unusual findings or patterns were
          discussed at the MEC.
       Focused Professional Practice Evaluations for
       newly hired licensed independent practitioners
       were initiated, completed, and reported to the
       MEC.
       Specific telemedicine services met selected
       requirements:
        Services were properly approved.
        Services were provided and/or received by
          appropriately privileged staff.
        Professional practice evaluation information
          was available for review.




VA OIG Office of Healthcare Inspections                                                                   3
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM               Areas Reviewed (continued)                                  Findings
       Observation bed use met selected
       requirements:
        Local policy included necessary elements.
        Data regarding appropriateness of
          observation bed usage was gathered.
        If conversions to acute admissions were
          consistently 30 percent or more,
          observation criteria and utilization were
          reassessed timely.
       Staff performed continuing stay reviews on at
       least 75 percent of patients in acute beds.
       The process to review resuscitation events
       met selected requirements:
        An interdisciplinary committee was
          responsible for reviewing episodes of care
          where resuscitation was attempted.
        Resuscitation event reviews included
          screening for clinical issues prior to events
          that may have contributed to the
          occurrence of the code.
        Data were collected that measured
          performance in responding to events.
       The surgical review process met selected
       requirements:
        An interdisciplinary committee with
          appropriate leadership and clinical
          membership met monthly to review surgical
          processes and outcomes.
        All surgical deaths were reviewed.
        Additional data elements were routinely
          reviewed.
       Critical incidents reporting processes were
       appropriate.
       The process to review the quality of entries in
       the EHR met selected requirements:
        A committee was responsible to review
          EHR quality.
        Data were collected and analyzed at least
          quarterly.
        Reviews included data from most services
          and program areas.
       The policy for scanning non-VA care
       documents met selected requirements.




VA OIG Office of Healthcare Inspections                                                                   4
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM              Areas Reviewed (continued)                                   Findings
 X     The process to review blood/transfusions          Twelve months of Transfusion Review
       usage met selected requirements:                  Committee meeting minutes reviewed:
        A committee with appropriate clinical            Although attendance records from committee
          membership met at least quarterly to review      meetings were unavailable, facility staff
          blood/transfusions usage.                        acknowledged that clinical representatives
        Additional data elements were routinely           from Anesthesia and Surgery Services did not
          reviewed.                                        consistently attend meetings.
       Overall, if significant issues were identified,
       actions were taken and evaluated for
       effectiveness.
       Overall, senior managers were involved in
       performance improvement over the past
       12 months.
       Overall, the facility had a comprehensive,
       effective QM/performance improvement
       program over the past 12 months.
       The facility met any additional elements
       required by VHA or local policy.

Recommendation

1. We recommended that processes be strengthened to ensure that members from
Anesthesia and Surgery Services consistently attend Transfusion Review Committee meetings
and that attendance records be available to support membership and attendance.




VA OIG Office of Healthcare Inspections                                                                   5
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


EOC
The purpose of this review was to determine whether the facility maintained a clean and safe
health care environment in accordance with applicable requirements and whether selected
requirements in radiology and acute MH were met.2

We inspected a medical, a surgical, and a medical intensive care unit; the emergency
department; the oncology infusion clinic; and two CLCs.               We also inspected the
fluoroscopy/x-ray area and the locked MH unit. Additionally, we reviewed relevant documents,
conversed with key employees and managers, and reviewed 30 employee training records
(10 radiology employees, 10 acute MH unit employees, 5 Multidisciplinary Safety Inspection
Team members, and 5 occasional acute MH unit employees). The table below shows the areas
reviewed for this topic. The areas marked as NM did not meet applicable requirements and
needed improvement. Any items that did not apply to this facility are marked NA.

NM            Areas Reviewed for General EOC                                 Findings
       EOC Committee minutes reflected sufficient
       detail regarding identified deficiencies,
       corrective actions taken, and tracking of
       corrective actions to closure.
       An infection prevention risk assessment was
       conducted, and actions were implemented to
       address high-risk areas.
       Infection Prevention/Control Committee
       minutes documented discussion of identified
       problem areas and follow-up on implemented
       actions and included analysis of surveillance
       activities and data.
       Fire safety requirements were met.                   
 X     Environmental safety requirements were met.        Two of the seven applicable patient care
                                                           areas were not clean.
       Infection prevention requirements were met.
       Medication safety and security requirements
       were met.
       Auditory privacy requirements were met.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Radiology
       The facility had a Radiation Safety Committee,         
       the committee met at least every 6 months
       and established a quorum for meetings, and
       the Radiation Safety Officer attended
       meetings.
       Radiation Safety Committee meeting minutes
       reflected discussion of any problematic areas,
       corrective actions taken, and tracking of
       corrective actions to closure.



VA OIG Office of Healthcare Inspections                                                                   6
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM      Areas Reviewed for Radiology (continued)                              Findings
       Facility policy addressed frequencies of
       equipment inspection, testing, and
       maintenance.
       The facility had a policy for the safe use of
       fluoroscopic equipment.
       The facility Director appointed a Radiation
       Safety Officer to direct the radiation safety
       program.
       X-ray and fluoroscopy equipment items were
       tested by a qualified medical physicist before
       placed in service and annually thereafter, and
       quality control was conducted on fluoroscopy
       equipment in accordance with facility
       policy/procedure.
       Designated employees received initial
       radiation safety training and training thereafter
       with the frequency required by local policy,
       and radiation exposure monitoring was
       completed for employees within the past year.
 X     Environmental safety requirements in x-ray           We found dust and loose debris on the floors
       and fluoroscopy were met.                             of procedure rooms.
       Infection prevention requirements in x-ray and
       fluoroscopy were met.
       Medication safety and security requirements
       in x-ray and fluoroscopy were met.
       Sensitive patient information in x-ray and
       fluoroscopy was protected.
       The facility complied with any additional
       elements required by VHA, local policy, or
       other regulatory standards.
               Areas Reviewed for Acute MH
       MH EOC inspections were conducted every
       6 months.
       Corrective actions were taken for                      
       environmental hazards identified during
       inspections, and actions were tracked to
       closure.
       MH unit staff, Multidisciplinary Safety                
       Inspection Team members, and occasional
       unit workers received training on how to
       identify and correct environmental hazards,
       content and proper use of the MH EOC
       Checklist, and VA’s National Center for
       Patient Safety study of suicide on psychiatric
       units.
       The locked MH unit(s) was/were in
       compliance with MH EOC Checklist safety
       requirements or an abatement plan was in
       place.


VA OIG Office of Healthcare Inspections                                                                     7
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM      Areas Reviewed for Acute MH (continued)                              Findings
       The facility complied with any additional             
       elements required by VHA, local policy, or
       other regulatory standards.

Recommendation

2. We recommended that processes be strengthened to ensure that patient care areas are
clean and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                   8
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Medication Management
The purpose of this review was to determine whether the appropriate clinical oversight and
education were provided to patients discharged with orders for fluoroquinolone oral antibiotics.3

We reviewed relevant documents and conversed with key managers and employees.
Additionally, we reviewed the EHRs of 32 randomly selected inpatients discharged on
1 of 3 selected oral antibiotics. The table below shows the areas reviewed for this topic. Any
items that did not apply to this facility are marked NA. The facility generally met requirements.
We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Clinicians conducted inpatient learning
       assessments within 24 hours of admission or
       earlier if required by local policy.
       If learning barriers were identified as part of
       the learning assessment, medication
       counseling was adjusted to accommodate the
       barrier(s).
       Patient renal function was considered in
       fluoroquinolone dosage and frequency.
       Providers completed discharge progress
       notes or discharge instructions, written
       instructions were provided to
       patients/caregivers, and EHR documentation
       reflected that the instructions were
       understood.
       Patients/caregivers were provided a written
       medication list at discharge, and the
       information was consistent with the dosage
       and frequency ordered.
       Patients/caregivers were offered medication
       counseling, and this was documented in
       patient EHRs.
       The facility established a process for
       patients/caregivers regarding whom to notify
       in the event of an adverse medication event.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                   9
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Coordination of Care
The purpose of this review was to evaluate discharge planning for patients with selected
aftercare needs.4

We reviewed relevant documents and conversed with key employees. Additionally, we
reviewed the EHRs of 32 randomly selected patients with specific diagnoses who were
discharged from July 1, 2012, through June 30, 2013. The table below shows the areas
reviewed for this topic. Any items that did not apply to this facility are marked NA. The facility
generally met requirements. We made no recommendations.

NM                      Areas Reviewed                                       Findings
       Patients’ post-discharge needs were
       identified, and discharge planning addressed
       the identified needs.
       Clinicians provided discharge instructions to
       patients and/or caregivers and validated their
       understanding.
       Patients received the ordered aftercare
       services and/or items within the
       ordered/expected timeframe.
       Patients’ and/or caregivers’ knowledge and
       learning abilities were assessed during the
       inpatient stay.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  10
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Nurse Staffing
The purpose of this review was to determine whether the facility implemented the staffing
methodology for nursing personnel and completed annual reassessments and to evaluate nurse
staffing on three inpatient units (acute medical/surgical, CLC, and MH).5

We reviewed facility and unit-based expert panel documents and 29 training files, and we
conversed with key employees. Additionally, we reviewed the actual nursing hours per patient
day for 3 randomly selected units—acute medical/surgical unit 4A, CLC unit WCT3, and MH unit
WCT6—for 50 randomly selected days between October 1, 2012, and September 30, 2013.
The table below shows the areas reviewed for this topic. Any items that did not apply to this
facility are marked NA.       The facility generally met requirements.       We made no
recommendations.

NM                      Areas Reviewed                                       Findings
       The facility either implemented or reassessed
       a nurse staffing methodology within the
       expected timeframes.
       The facility expert panel followed the required
       processes and included the required
       members.
       The unit-based expert panels followed the
       required processes and included the required
       members.
       Members of the expert panels completed the
       required training.
       The actual nursing hours per patient day met
       or exceeded the target nursing hours per
       patient day.
       The facility complied with any additional
       elements required by VHA or local policy.




VA OIG Office of Healthcare Inspections                                                                  11
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


Pressure Ulcer Prevention and Management
The purpose of this review was to determine whether acute care clinicians provided
comprehensive pressure ulcer prevention and management.6

We reviewed relevant documents, 25 EHRs of patients with pressure ulcers (10 patients with
hospital-acquired pressure ulcers, 10 patients with community-acquired pressure ulcers, and
5 patients with pressure ulcers at the time of our onsite visit), and 10 employee training records.
Additionally, we inspected three patient rooms. The table below shows the areas reviewed for
this topic. The areas marked as NM did not meet applicable requirements and needed
improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility had a pressure ulcer prevention
       policy, and it addressed prevention for all
       inpatient areas and for outpatient care.
       The facility had an interprofessional pressure
       ulcer committee, and the membership
       included a certified wound care specialist.
       Pressure ulcer data was analyzed and
       reported to facility executive leadership.
       Complete skin assessments were performed
       within 24 hours of acute care admissions.
       Skin inspections and risk scales were
       performed upon transfer change in condition,
       and discharge.
 X     Staff were generally consistent in                 In 9 of the 25 EHRs, staff did not consistently
       documenting location, stage, risk scale score,      document the location, stage, risk scale
       and date acquired.                                  score, and/or date acquired.
       Required activities were performed for
       patients determined to be at risk for pressure
       ulcers and for patients with pressure ulcers.
       Required activities were performed for
       patients determined to not be at risk for
       pressure ulcers.
       For patients at risk for and with pressure
       ulcers, interprofessional treatment plans were
       developed, interventions were recommended,
       and EHR documentation reflected that
       interventions were provided.
       If the patient’s pressure ulcer was not healed
       at discharge, a wound care follow-up plan was
       documented, and the patient was provided
       appropriate dressing supplies.




VA OIG Office of Healthcare Inspections                                                                  12
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM             Areas Reviewed (continued)                                     Findings
 X     The facility defined requirements for patient     Facility pressure ulcer patient and caregiver
       and caregiver pressure ulcer education, and       education requirements reviewed:
       education on pressure ulcer prevention and         For 8 of the applicable 17 patients at risk
       development was provided to those at risk for       for/with a pressure ulcer, EHRs did not
       and with pressure ulcers and/or their               contain evidence that education was
       caregivers.                                         provided.
       The facility defined requirements for staff
       pressure ulcer education, and acute care staff
       received training on how to administer the
       pressure ulcer risk scale, conduct the
       complete skin assessment, and accurately
       document findings.
       The facility complied with selected fire and
       environmental safety, infection prevention,
       and medication safety and security
       requirements in pressure ulcer patient rooms.
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendations

3. We recommended that processes be strengthened to ensure that acute care staff
accurately document location, stage, risk scale score, and date pressure ulcer acquired for all
patients with pressure ulcers and that compliance be monitored.

4. We recommended that processes be strengthened to ensure that acute care staff provide
and document pressure ulcer education for patients at risk for and with pressure ulcers and/or
their caregivers and that compliance be monitored.




VA OIG Office of Healthcare Inspections                                                                  13
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


CLC Resident Independence and Dignity
The purpose of this review was to determine whether VHA facilities provided CLC restorative
nursing services and complied with selected nutritional management and dining service
requirements to assist CLC residents in maintaining their optimal level of functioning,
independence, and dignity.7

We reviewed 10 EHRs of residents receiving restorative nursing services. We also observed
10 residents during 2 meal periods, reviewed 10 employee training/competency records and
other relevant documents, and conversed with key employees. The table below shows the
areas reviewed for this topic. The area marked as NM did not meet applicable requirements
and needed improvement. Any items that did not apply to this facility are marked NA.

NM                      Areas Reviewed                                       Findings
       The facility offered restorative nursing
       services.
       Facility staff completed and documented
       restorative nursing services, including active
       and passive range of motion, bed mobility,
       transfer, and walking activities, according to
       clinician orders and residents’ care plans.
       Resident progress towards restorative nursing
       goals was documented, and interventions
       were modified as needed to promote the
       resident’s accomplishment of goals.
       When restorative nursing services were care
       planned but were not provided or were
       discontinued, reasons were documented in
       the EHR.
       If residents were discharged from physical
       therapy, occupational therapy, or
       kinesiotherapy, there was hand-off
       communication between Physical Medicine
       and Rehabilitation Service and the CLC to
       ensure that restorative nursing services
       occurred.
 X     Training and competency assessment were            Three employee training/competency records
       completed for staff that performed restorative      did not contain evidence of completed training
       nursing services.                                   and competency assessment for range of
                                                           motion and resident transfers.
       The facility complied with any additional
       elements required by VHA or local policy.
           Areas Reviewed for Assistive Eating
                Devices and Dining Service
       Care planned/ordered assistive eating devices
       were provided to residents at meal times.
       Required activities were performed during
       resident meal periods.




VA OIG Office of Healthcare Inspections                                                                  14
                                   CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


NM        Areas Reviewed for Assistive Eating                                Findings
         Devices and Dining Service (continued)
       The facility complied with any additional
       elements required by VHA or local policy.

Recommendation

5. We recommended that processes be strengthened to ensure that employees who perform
restorative nursing services receive training on and competency assessment for range of motion
and resident transfers.




VA OIG Office of Healthcare Inspections                                                                  15
                                CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                              Appendix A


               Facility Profile (Cleveland/541) FY 2014 through
                                 December 2013a
Type of Organization                                                                Tertiary
Complexity Level                                                                    1a-High complexity
Affiliated/Non-Affiliated                                                           Affiliated
Total Medical Care Budget in Millions (September 2013)                              $793.6
Number of:
    Unique Patients                                                                69,196
    Outpatient Visits                                                              329,375
    Unique Employeesb                                                              3,919
Type and Number of Operating Beds (November 2013):
    Hospital                                                                       276
    CLC                                                                            173
    MH                                                                             180
Average Daily Census (November 2013):
    Hospital                                                                       188
    CLC                                                                            144
    MH                                                                             155
Number of Community Based Outpatient Clinics                                        13
Location(s)/Station Number(s)                                                       Canton/541BY
                                                                                    Youngstown/541BZ
                                                                                    Lorain/541GB
                                                                                    Sandusky/541GC
                                                                                    Mansfield/541GD
                                                                                    McCafferty/541GE
                                                                                    Painesville/541GF
                                                                                    Akron/541GG
                                                                                    East Liverpool/541GH
                                                                                    Warren/541GI
                                                                                    New Philadelphia/541GJ
                                                                                    Ravenna/541GK
                                                                                    Parma/541GL
VISN Number                                                                         10




a
    All data is for FY 2014 through December 2013 except where noted. 

b
    Unique employees involved in direct medical care (cost center 8200) from most recent pay period. 



VA OIG Office of Healthcare Inspections                                                                  16
                                                                               CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                                                                             Appendix B

                                                   Strategic Analytics for Improvement and Learning (SAIL)c




       c
           Metric definitions follow the graphs.


VA OIG Office of Healthcare Inspections                                                                                                              17
                                                  CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



                                          Scatter Chart 





VA OIG Office of Healthcare Inspections                                                                                 18
                                                                                         CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


                                                                         Metric Definitions
 Measure                       Definition                                                                          Desired direction
 ACSC Hospitalization          Ambulatory care sensitive condition hospitalizations (observed to expected ratio)   A lower value is better than a higher value
 Adjusted LOS                  Acute care risk adjusted length of stay                                             A lower value is better than a higher value
 Call Center Responsiveness    Average speed of call center responded to calls in seconds                          A lower value is better than a higher value
 Call Responsiveness           Call center speed in picking up calls and telephone abandonment rate                A lower value is better than a higher value
 Complications                 Acute care risk adjusted complication ratio                                         A lower value is better than a higher value
 Efficiency                    Overall efficiency measured as 1 divided by SFA (Stochastic Frontier Analysis)      A higher value is better than a lower value
 Employee Satisfaction         Overall satisfaction with job                                                       A higher value is better than a lower value
 HC Assoc Infections           Health care associated infections                                                   A lower value is better than a higher value
 HEDIS                         Outpatient performance measure (HEDIS)                                              A higher value is better than a lower value
 MH Status                     MH status (outpatient only, the Veterans RAND 12 Item Health Survey)                A higher value is better than a lower value
 MH Wait Time                  MH wait time for new and established patients (top 50 clinics)                      A higher value is better than a lower value
 Oryx                          Inpatient performance measure (ORYX)                                                A higher value is better than a lower value
 Physical Health Status        Physical health status (outpatient only, the Veterans RAND 12 item Health Survey)   A higher value is better than a lower value
 Primary Care Wait Time        Primary care wait time for new and established patients (top 50 clinics)            A higher value is better than a lower value
 PSI                           Patient safety indicator                                                            A lower value is better than a higher value
 Pt Satisfaction               Overall rating of hospital stay (inpatient only)                                    A higher value is better than a lower value
 RN Turnover                   Registered nurse turnover rate                                                      A lower value is better than a higher value
 RSMR-AMI                      30-day risk standardized mortality rate for acute myocardial infarction             A lower value is better than a higher value
 RSMR-CHF                      30-day risk standardized mortality rate for congestive heart failure                A lower value is better than a higher value
 RSMR-Pneumonia                30-day risk standardized mortality rate for pneumonia                               A lower value is better than a higher value
 RSRR-AMI                      30-day risk standardized readmission rate for acute myocardial infarction           A lower value is better than a higher value
 RSRR-CHF                      30-day risk standardized readmission rate for congestive heart failure              A lower value is better than a higher value
 RSRR-Pneumonia                30-day risk standardized readmission rate for pneumonia                             A lower value is better than a higher value
 SMR                           Acute care in-hospital standardized mortality ratio                                 A lower value is better than a higher value
 SMR30                         Acute care 30-day standardized mortality ratio                                      A lower value is better than a higher value
 Specialty Care Wait Time      Specialty care wait time for new and established patients (top 50 clinics)          A higher value is better than a lower value




VA OIG Office of Healthcare Inspections                                                                                                                          19
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                        Appendix C
                              VISN Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       January 31, 2014

          From:        Network Director, VA Healthcare System of Ohio (10N10)

       Subject:        CAP Review of the Louis Stokes Cleveland VA Medical
                       Center, Cleveland, OH

             To:       Director, Baltimore Office of Healthcare Inspections (54BA)

                       Director, Management Review Service (VHA 10AR MRS
                       OIG CAP CBOC)

       1. I have reviewed and concur with the findings and recommendations in
          the report of the Combined Assessment Program Review of
          The Louis Stokes Cleveland VA Medical Center in Cleveland, Ohio.
       2. If you have any questions or concerns, please contact Jane Johnson,
          Deputy Quality Management Officer (QMO) at (513) 247-4631.




VA OIG Office of Healthcare Inspections                                                         20
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                        Appendix D
                            Facility Director Comments



               Department of
               Veterans Affairs                                   Memorandum


           Date:       January 31, 2014

          From: 	      Director, Louis Stokes Cleveland VA Medical Center
                       (541/00)

       Subject: 	      CAP Review of the Louis Stokes Cleveland VA Medical
                       Center, Cleveland, OH

             To:       Network Director, VA Healthcare System of Ohio (10N10)

       1. I have reviewed and concur with the findings and recommendations in
          the draft report of the Office of the Inspector General
          Combined Assessment Program Review conducted the week of
          December 2, 2013.
       2. Corrective action plans have 	been established, with some being
          already implemented, and target completion dates have been set for
          the remaining items as detailed in the attached report.




VA OIG Office of Healthcare Inspections                                                         21
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

Recommendation 1. We recommended that processes be strengthened to ensure that
members from Anesthesia and Surgery Services consistently attend Transfusion
Review Committee meetings and that attendance records be available to support
membership and attendance.

Concur

Target date for completion: June 30, 2014

Facility response: Individuals from Anesthesia and Surgery Services who are assigned
responsibility for attending the Transfusion Review Committee were coached on
ensuring attendance and participation on the committee or to send a delegate in the
event of an emergency clinical need which takes precedence. The process for
monitoring attendance at quarterly transfusion committee meetings has been
strengthened to include a new tracking sheet which is monitored by Quality
Management.

Recommendation 2. We recommended that processes be strengthened to ensure that
patient care areas are clean and that compliance be monitored.

Concur

Target date for completion: February 28, 2014

Facility response: The Medical Center has a robust Environment of Care (EOC)
monitoring program process for ensuring cleanliness of patient care areas including
staff and Executive rounding. Compliance is tracked through the Environment of Care
Committee.

Recommendation 3. We recommended that processes be strengthened to ensure that
acute care staff accurately document location, stage, risk scale score, and date
pressure ulcer acquired for all patients with pressure ulcers and that compliance be
monitored.

Concur

Target date for completion: February 28, 2014

Facility response: Medical Center leadership has been actively engaged in
strengthening the pressure ulcer prevention program. Nurses are required to complete


VA OIG Office of Healthcare Inspections                                                         22
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH


National Database of Nursing Quality Indicator (NDNQI) modules in Talent
Management System (TMS) since December 2012. The NDNQI modules provide
education on assessing and documenting appropriate stage and risk. Education on
comprehensive assessment and documentation of pressure ulcers, including
appropriate use of the Braden scale to assess risk, was provided to acute care nursing
staff in August 2013. A multidisciplinary pressure ulcer prevention workgroup is revising
the documentation audit tool to include the following: 
     Complete skin assessment performed within 24 hours.
     Skin inspection and Braden Scale performed upon transfer, change in condition,
        and discharge.
     Consistent documentation of the pressure ulcer location, stage, Braden Scale,
        and date pressure ulcer acquired.
    	 For Veterans at risk for and with pressure ulcers, were treatment plans
        developed, interventions recommended, and does the documentation reflect the
        interventions were provided.
    	 Education on pressure ulcer prevention and development provided to those at
        risk for and with pressure ulcers provided to the Veteran and/or their caregivers.

Recommendation 4. We recommended that processes be strengthened to ensure that
acute care staff provide and document pressure ulcer education for patients at risk for
and with pressure ulcers and/or their caregivers and that compliance be monitored.

Concur

Target date for completion: March 31, 2014

Facility response: The Medical Center is in the process of developing a pressure ulcer
prevention Patient Education Resources Center (PERC) Pack. The PERC Pack will be
ordered by providers or nursing when a Braden scale is 18 or below. The packet will be
delivered to the floor for nursing staff to conduct Veteran and/or caregiver education.
The revised audit tool will track compliance with documentation of pressure ulcer
prevention education.

Recommendation 5. We recommended that processes be strengthened to ensure that
employees who perform restorative nursing services receive training on and
competency assessment for range of motion and resident transfers.

Concur

Target date for completion: March 31, 2014

Facility response: The Nurse Restorative Coordinator is in the process of providing
educational training and competencies on range of motion and resident transfers to
current float nurses assigned to the Community Living Center (CLC). New float pool
staff assigned to the CLC will be trained in restorative nursing during orientation.




VA OIG Office of Healthcare Inspections                                                         23
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                        Appendix E


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Jennifer Christensen, DPM, Team Leader
Contributors            Donald Braman, RN, BSN
                        Margie Chapin, RT (R), JD
                        Terri Julian, PhD
                        Melanie Oppat, MEd, LDN
                        Sonia Whig, MS, LDN
                        Gavin McClaren, Resident Agent in Charge, Office of
                           Investigations
                        J. Douglas Metzler, Special Agent, Office of Investigations
                        Todd Springer, Special Agent, Office of Investigations
Other                   Elizabeth Bullock
Contributors            Shirley Carlile, BA
                        Paula Chapman, CTRS
                        Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Cynthia Gallegos
                        Jeff Joppie, BS
                        Victor Rhee, MHS
                        Julie Watrous, RN, MS
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                         24
                          CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                        Appendix F


                                   Report Distribution
VA Distribution

Office of the Secretary
VHA
Assistant Secretaries
General Counsel
Director, VA Healthcare System of Ohio (10N10)
Director, Louis Stokes Cleveland VA Medical Center (541/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
  Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
  Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Rob Portman 

U.S. House of Representatives: Steve Chabot, Marcia L. Fudge, Bob Gibbs, 

Bill Johnson, Jim Jordan, David Joyce, Marcy Kaptur, Robert E. Latta, Jim Renacci, 

Tim Ryan, Pat Tiberi, Michael Turner, Brad Wenstrup 



This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                                         25
                                CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH
                                                                                              Appendix G

                                                  Endnotes

1
    References used for this topic included:
	 VHA Directive 2009-043, Quality Management System, September 11, 2009.
	 VHA Handbook 1050.01, VHA National Patient Safety Improvement Handbook, March 4, 2011.
	 VHA Directive 2010-017, Prevention of Retained Surgical Items, April 12, 2010.
	 VHA Directive 2010-025, Peer Review for Quality Management, June 3, 2010.
	 VHA Directive 2010-011, Standards for Emergency Departments, Urgent Care Clinics, and Facility Observation
    Beds, March 4, 2010.
	 VHA Directive 2009-064, Recording Observation Patients, November 30, 2009.
	 VHA Handbook 1100.19, Credentialing and Privileging, October 15, 2012.
	 VHA Directive 2008-063, Oversight and Monitoring of Cardiopulmonary Resuscitative Events and Facility
    Cardiopulmonary Resuscitation Committees, October 17, 2008.
	 VHA Handbook 1907.01, Health Information Management and Health Records, September 19, 2012.
	 VHA Directive 6300, Records Management, July 10, 2012.
	 VHA Directive 2009-005, Transfusion Utilization Committee and Program, February 9, 2009.
	 VHA Handbook 1106.01, Pathology and Laboratory Medicine Service Procedures, October 6, 2008.
2
    References used for this topic included:
	 VHA Directive 1105.01, Management of Radioactive Materials, October 7, 2009.
	 VHA Directive 2011-007, Required Hand Hygiene Practices, February 16, 2011.
	 VHA Handbook 1105.04, Fluoroscopy Safety, July 6, 2012.
	 VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,
    September 11, 2008.
	 VA Radiology, “Online Guide,” http://vaww1.va.gov/RADIOLOGY/OnLine_Guide.asp, updated
    October 4, 2011.
	 VA National Center for Patient Safety, “Privacy Curtains and Privacy Curtain Support Structures (e.g., Track and
    Track Supports) in Locked Mental Health Units,” Patient Safety Alert 07-04, February 16, 2007.
	 VA National Center for Patient Safety, “Multi-Dose Pen Injectors,” Patient Safety Alert 13-04, January 17, 2013.
	 VA National Center for Patient Safety, Mental Health Environment of Care Checklist (MHEOCC),
    April 11, 2013.
	 Deputy Under Secretary for Health for Operations and Management, “Mitigation of Items Identified on the
    Environment of Care Checklist,” November 21, 2008.
	 Deputy Under Secretary for Health for Operations and Management, “Change in Frequency of Review Using the
    Mental Health Environment of Care Checklist,” April 14, 2010.
	 Deputy Under Secretary for Health for Operations and Management, “Guidance on Locking Patient Rooms on
    Inpatient Mental Health Units Treating Suicidal Patients,” October 29, 2010.
	 Various requirements of The Joint Commission, the Occupational Safety and Health Administration, the National
   Fire Protection Association, the Health Insurance Portability and Accountability Act, the American College of
   Radiology Practice Guidelines and Technical Standards, Underwriters Laboratories.
3
  References used for this topic included:
	 VHA Handbook 1108.06, Inpatient Pharmacy Services, June 27, 2006.
	 VHA Handbook 1108.05, Outpatient Pharmacy Services, May 30, 2006.
	 VHA Directive 2011-012, Medication Reconciliation, March 9, 2011.
	 VHA Handbook 1907.01.
	 Manufacturer’s instructions for Cipro® and Levaquin®.
	 Various requirements of The Joint Commission.
4
  References used for this topic included:
	 VHA Handbook 1120.04, Veterans Health Education and Information Core Program Requirements,
   July 29, 2009.
	 VHA Handbook 1907.01.
	 The Joint Commission, Comprehensive Accreditation Manual for Hospitals, July 2013.
5
  The references used for this topic were:
	 VHA Directive 2010-034, Staffing Methodology for VHA Nursing Personnel, July 19, 2010.
	 VHA “Staffing Methodology for Nursing Personnel,” August 30, 2011.



VA OIG Office of Healthcare Inspections                                                                            26
                                CAP Review of the Louis Stokes Cleveland VA Medical Center, Cleveland, OH



6
    References used for this topic included:
	 VHA Handbook 1180.02, Prevention of Pressure Ulcers, July 1, 2011 (corrected copy).
	 Various requirements of The Joint Commission.
	 Agency for Healthcare Research and Quality Guidelines.
	 National Pressure Ulcer Advisory Panel Guidelines.
	 The New York State Department of Health, et al., Gold STAMP Program Pressure Ulcer Resource Guide,
   November 2012.
7
  References used for this topic included:
	 VHA Handbook 1142.01, Criteria and Standards for VA Community Living Centers (CLC), August 13, 2008.
	 VHA Handbook 1142.03, Requirements for Use of the Resident Assessment Instrument (RAI) Minimum Data Set
   (MDS), January 4, 2013.
	 Centers for Medicare and Medicaid Services, Long-Term Care Facility Resident Assessment Instrument User’s
   Manual, Version 3.0, May 2013.
	 VHA Manual M-2, Part VIII, Chapter 1, Physical Medicine and Rehabilitation Service, October 7, 1992.
	 Various requirements of The Joint Commission.




VA OIG Office of Healthcare Inspections                                                                    27
